DOE/IG-0536




  INSPECTION                     FOLLOW-ON INSPECTION OF
    REPORT                     THE DEPARTMENT OF ENERGY’S
                               VALUE ENGINEERING PROGRAM




                                    DECEMBER 2001




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                             U.S. DEPARTMENT OF ENERGY
                                   Washington, DC 20585

                                      December 20, 2001



MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman /s/
                      Inspector General

SUBJECT:              INFORMATION: Report on “Follow-on Inspection of the Department of
                      Energy’s Value Engineering Program”

BACKGROUND

Value Engineering is a recognized management tool which, if properly implemented and
executed, can streamline operations, improve quality, and reduce costs. Through the use of
methodologies such as Value Engineering, Federal agencies are realizing an average of more
than $20 in savings/costs avoidance for each dollar spent on performing the value effort.

Office of Management and Budget (OMB) Circular A-131, “Value Engineering,” requires Federal
departments and agencies to use Value Engineering, where appropriate, to reduce program and
acquisition costs. OMB also requires Inspectors General to evaluate how well the agencies have done
in their efforts to implement Value Engineering. In July 1998, the Office of Inspector General (OIG)
reported the results of its audit of DOE’s Value Engineering program. We found that: (1) the
Department had not implemented an effective Value Engineering program; (2) several major sites had
no formal Value Engineering programs or processes in place; and (3) some Value Engineering savings
were not always supported or were not the result of Value Engineering activities. Management
concurred with the audit recommendations and identified actions that would be taken to address the
findings and recommendations.

The objective of our follow-on inspection was to determine if the Department, including the National
Nuclear Security Administration, has taken appropriate action to implement an effective Value
Engineering program.

RESULTS OF INSPECTION

We concluded that the Department has not fully developed and implemented an effective Value
Engineering program as required by OMB Circular A-131. Further, the Department has not taken all
the actions it agreed to in response to the recommendations in the July 1998 OIG report on this
subject.
We observed that to varying degrees some elements of the National Nuclear Security Administration,
the Office of Science, and the Office of Environmental Management employ the use of Value
Engineering to increase the efficiency and performance of their programs. However, even in these
organizations, Value Engineering methodologies have not been applied consistently and, for the most
part, have only been applied to construction projects. As we concluded in 1998, it is our view that the
Department can materially improve the performance of its programs - - - such as reducing acquisition
and program costs, increasing productivity, streamlining operations, and improving quality - - - if it
implements a robust and aggressive Value Engineering program. Our report includes
recommendations to address the concerns raised in this report and in our 1998 report.

Although an evaluation of the Department’s contractor incentive program was not a direct part of
our review, a concern was raised about the lack of incentives for contractors to employ Value
Engineering principles as they operate the Department’s programs. The OIG has issued several
reports concerning the Department’s performance-based incentive program. We plan to conduct
additional reviews of this area in the future.

MANAGEMENT REACTION

Management concurred with our recommendations and identified corrective actions that, if fully
implemented, would be responsive to the recommendations.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Administrator, National Nuclear Security Administration
    Director, Office of Management, Budget and Evaluation/Chief Financial Officer
FOLLOW-ON INSPECTION OF THE DEPARTMENT OF
ENERGY’S VALUE ENGINEERING PROGRAM


TABLE OF
CONTENTS



              OVERVIEW

              Introduction and Objective……………………………….           1

              Background……………………………………..…………                    2

              Observations and Conclusions……….…………………           3

              DETAILS OF FINDINGS…………………………………                  4

              OMB Policy Not Fully Implemented…………………….         4

              1998 OIG Audit Recommendations
               Not Implemented…………………………………..……                 5

              RECOMMENDATIONS…………………………..………                    9

              MANAGEMENT COMMENTS……………………..……                   10

              INSPECTOR COMMENTS………………………..…….                  11


              APPENDICES

              A. Scope and Methodology……………………….…….             12

              B. OMB Circular A-131 Requirements………..……….       14

              C. Status of 1998 OIG Audit Recommendations…..…   15
Overview
INTRODUCTION    Value Engineering is defined by Office of Management and
AND OBJECTIVE   Budget (OMB) Circular A-131, “Value Engineering,” dated
                May 21, 1993, as an organized effort directed at analyzing the
                functions of systems, equipment, facilities, services, and supplies
                for the purpose of achieving the essential functions at the lowest
                life-cycle cost consistent with required performance, reliability,
                quality, and safety. These organized efforts can be performed by
                both in-house agency personnel and by contractor personnel.
                However, according to the Department of Energy’s (DOE) draft
                “Project Management Practices” dated October 2000, “value
                engineering studies are led by an individual trained in value
                engineering.”

                Public Law 104-106, the Federal Acquisition Reform Act of 1996,
                requires Federal agencies to establish and maintain cost effective Value
                Engineering procedures and processes to reduce program and acquisition
                costs. OMB Circular A-131 requires Federal departments and agencies
                to use Value Engineering as a management tool, where appropriate, to
                reduce program and acquisition costs. OMB also requires Inspectors
                General to evaluate how well the agencies have done in their efforts to
                implement Value Engineering.

                In July 1998, the Office of Inspector General (OIG) reported the results
                of its audit of DOE’s Value Engineering program. The OIG reported
                that: (1) the Department had not implemented an effective Value
                Engineering program; (2) several major sites had no formal Value
                Engineering programs or processes in place; and (3) some Value
                Engineering savings were not always supported or were not the result of
                Value Engineering activities. According to the OIG audit report, as a
                result, the intended Value Engineering goals of reducing costs,
                increasing productivity, streamlining operations, and improving quality
                might not have been achieved to the fullest extent possible.
                Management concurred with the OIG audit report recommendations.

                On June 25, 1999, the Deputy Secretary of Energy announced a series of
                Secretarial reforms to strengthen and improve management of the
                Department’s construction and other major projects. Under the
                Department’s Project Management Reform Initiative, it was determined
                that in order to complete projects successfully, safely and within budget,
                improved project management performance must be achieved. The
                Office of Engineering and Construction Management (OECM), under
                the auspices of the Office of the Chief Financial Officer (now the Office
                of Management, Budget and Evaluation), was established to lead this
                initiative.




Page 1                             Follow-on Inspection of the Department of
                                   Energy’s Value Engineering Program
             Consequently, the objective of our inspection was to determine if the
             Department, including the National Nuclear Security Administration,
             has taken appropriate action to implement an effective Value
             Engineering program.

BACKGROUND   Value Engineering is a management tool that can be used alone or with
             other management techniques and methodologies, such as lifecycle
             costing, design-to-cost, etc., to improve operations and reduce costs. It
             contributes to the overall management objectives of streamlining
             operations, improving quality, and reducing costs, and can result in the
             increased use of environmentally sound and energy-efficient practices
             and materials.

             In August 1991, an audit of Value Engineering in the Federal
             government by the President’s Council on Integrity and Efficiency
             concluded that more can and should be done by Federal agencies to
             realize the benefits of Value Engineering. In addition, reports issued by
             the General Accounting Office (GAO) and agency Inspectors General
             have consistently concluded that greater use of Value Engineering would
             result in additional savings to the Federal government.

             Under the Government Performance and Results Act of 1993, annual
             performance plans are to establish performance goals and measures
             covering a given fiscal year and provide direct linkage between an
             agency's longer-term goals and day-to-day activities. According to a
             June 2000 GAO report on the Department’s performance plans, titled
             “Observations on the Department of Energy's Fiscal Year 1999
             Accountability Report and Fiscal Year 2000/2001 Performance Plans,”
             GAO does not believe the Department has adequately addressed the
             challenge of completing large projects. GAO believes that many of the
             Department’s remedies focus on procedures rather than desired outcome,
             which is to complete large projects on time and within cost estimates.

             SAVE, International, is an international society devoted to the
             advancement and promotion of value methodologies, such as Value
             Engineering. SAVE reports that through use of value methodologies,
             U.S. Government agencies are realizing an average of more than $20 in
             savings/costs avoidance for each dollar spent on performing the value
             effort. The Army Corps of Engineers, the Department of the Interior,
             and the Department of State have confirmed that the historical return on
             investment for these agencies from value efforts is $20 in savings/cost
             avoidance for each dollar spent. The Federal Highway Administration
             reported that the Federal Highway program has achieved a return of
             more than $100 for each dollar spent on value efforts during the period
             1997-2000. The most recent report to OMB by DOE showed $8 in
             savings/cost avoidance for each dollar spent on value efforts in 1998.



Page 2                                                            Background
OBSERVATIONS AND   We concluded that the Department, including the National Nuclear
CONCLUSIONS        Security Administration, has not fully developed and implemented
                   an effective Value Engineering program. The Department has not
                   fully implemented requirements of OMB Circular A-131 for
                   establishing and maintaining a Value Engineering program and
                   reporting accomplishments. In addition, the Department has not
                   fully implemented the recommendations in the July 1998 OIG
                   audit report on the Department’s Value Engineering program.

                   To varying degrees some elements of the National Nuclear Security
                   Administration, the Office of Science, and the Office of Environmental
                   Management employ the use of Value Engineering to increase the
                   efficiency and performance of their programs. However, Value
                   Engineering has not been applied consistently throughout these
                   organizations and, for the most part, has only been applied to
                   construction projects. We believe, however, that the Department will
                   not realize the full benefits of the Value Engineering methodology,
                   which include reducing acquisition and program costs, increasing
                   productivity, streamlining operations, and improving quality, unless and
                   until the requirements in OMB Circular A-131 for an effective Value
                   Engineering program are implemented.

                   Although the Department’s performance-based incentive program was
                   not part of our review, a concern was raised about the lack of incentives
                   for contractors to ensure the use of Value Engineering to reduce the cost
                   of construction projects, equipment, systems, services, and supplies.
                   The OIG has issued numerous reports concerning the Department’s
                   performance-based incentive program.




Page 3                                             Observations and Conclusions
Details of Findings
                       OMB policy states that Federal agencies shall use Value Engineering as
                       a management tool, where appropriate, to ensure realistic budgets,
                       identify and remove nonessential capital and operating costs, and
                       improve and maintain optimum quality of program and acquisition
                       functions. According to the OMB policy, senior management will
                       establish and maintain Value Engineering programs, procedures and
                       processes to provide for the aggressive, systematic development and
                       maintenance of the most effective, efficient, economical and
                       environmentally-sound arrangements for conducting the work of
                       agencies, and to provide a sound basis for identifying and reporting
                       accomplishments.

OMB Policy Not Fully   We found that the Department has not fully implemented requirements
Implemented            of OMB Circular A-131 for establishing and maintaining a Value
                       Engineering program and reporting accomplishments.

                       OMB Circular A-131 defines minimum agency responsibilities for
                       ensuring that systemic Value Engineering improvements are achieved.
                       Among these responsibilities are: designating a senior management
                       official to monitor and coordinate agency efforts; developing criteria and
                       guidelines; providing training; ensuring funding for conducting Value
                       Engineering efforts; developing annual plans for use of Value
                       Engineering; and reporting annually to OMB on Value Engineering
                       activities.

                       At the time of our review, many of these responsibilities had not been
                       implemented. For example, a senior management official had not been
                       designated; criteria and guidelines for Value Engineering had not been
                       developed; a formal training program for Value Engineering had not
                       been established; funds necessary for conducting agency Value
                       Engineering efforts had not been included in annual budget requests to
                       OMB; annual plans had not been developed for use of Value
                       Engineering; and DOE had not submitted reports to OMB in FY 1999
                       and FY 2000 on its Value Engineering activities.

                       A list of the minimum agency responsibilities established by OMB
                       Circular A-131 for Value Engineering, as well as the status of the
                       Department’s actions to implement the responsibilities, is shown in
                       Appendix B.

                       Responsibility for many of the project management functions performed
                       by the former DOE Office of Field Integration, which included
                       responsibility for the Department’s Value Engineering program, were
                       assumed by OECM. In July 2000, OECM signed a Memorandum of
                       Agreement with the Department’s National Energy Technology
                       Laboratory (NETL) for NETL to serve as the lead Federal support group



Page 4                                                                Details of Findings
                      to OECM for Value Engineering initiatives. According to the
                      Agreement, NETL will establish and lead a DOE-wide Value
                      Engineering Team. NETL will also, among other things, develop/update
                      DOE policy and guidance on Value Engineering to establish a strong
                      working knowledge of Value Engineering methodology, theory, and
                      practices within the Department; develop the Value Engineering chapter
                      of the proposed DOE Program and Project Management Manual; host
                      Value Engineering methodology training and lessons-learned
                      workshops; develop methodologies for computing and reporting Value
                      Engineering-related savings; and establish annual and long-term goals
                      and objectives for Value Engineering along with performance measures.

1998 OIG Audit        Despite the NETL initiatives, we found that none of the
Recommendations Not   recommendations in the 1998 OIG audit report on the Department’s
Fully Implemented     Value Engineering program have been fully implemented.

                      According to the July 1998 OIG audit report, titled “The U.S.
                      Department of Energy’s Value Engineering Program,” HQ-B-98-01, the
                      Department had not fully developed and implemented an effective Value
                      Engineering program. The report recommendations included corrective
                      actions to improve the Department’s Value Engineering program, such
                      as clarifying the requirement for use of Value Engineering in DOE
                      orders and other guidance; establishing annual and long-term goals and
                      objectives and performance measures; ensuring guidance adequately
                      addresses methodologies for computing and reporting savings;
                      expanding application of Value Engineering beyond construction
                      projects in order to realize the full benefit of the Value Engineering
                      methodology; developing training in Value Engineering; and ensuring
                      adequate guidance to implement a Value Engineering program is
                      provided to program offices, including guidance on an approach to
                      funding the Value Engineering program.

                      As stated previously, DOE management concurred with the
                      recommendations in the 1998 OIG audit report and agreed to take
                      corrective actions. Management stated that teams of field, Headquarters
                      and contractor personnel had been established and would develop by
                      November 1, 1998, an in-depth action plan responsive to the OIG
                      recommendations. According to the response, management intended to
                      implement as many of the actions as possible by November 1, 1998, or
                      have an established schedule to complete the remaining actions.

                      As of September 6, 2001, however, corrective actions on the 1998 OIG
                      audit report recommendations had not been completed. All the
                      recommendations were open in the Department’s Audit Report Tracking
                      System (DARTS). Actions by the Department to implement




Page 5                                                             Details of Findings
                           recommendations from the 1998 OIG audit report are discussed in
                           Appendix C.

                           The following is the status of selected recommendations:

Guidance Not Clarified According to the 1998 OIG audit report, the Department needs to clarify
Regarding Use of Value the requirement for Value Engineering in DOE O 430.1, “Life-Cycle
Engineering            Asset Management,” (LCAM 430.1), which was issued in August 1995.
                       DOE 430.1 required the use of a “. . . process tool, such as Value
                       Engineering, to improve efficiency and cost effectiveness.” The OIG
                       recommended clarifying the requirement for Value Engineering in
                       LCAM 430.1 and other Departmental guidance.

                           We determined that there were two DOE orders containing references to
                           Value Engineering that were issued subsequent to the 1998 OIG audit
                           report. We reviewed these orders to determine whether either order
                           clarified the requirements for Value Engineering. The two orders were
                           DOE O 430.1A, “Life-Cycle Asset Management,” dated October 14,
                           1998, which cancelled LCAM 430.1, and DOE O 413.3, “Program and
                           Project Management for the Acquisition of Capital Assets,” issued
                           October 13, 2000. We noted that neither DOE O 430.1A, which
                           contained the same language regarding Value Engineering as LCAM
                           430.1, nor DOE O 413.3, which cancelled portions of DOE O 430.1A,
                           contained a specific requirement regarding the use of Value
                           Engineering.

Goals, Objectives,         According to the 1998 OIG audit report, the Department’s Value
And Performance            Engineering program “was not fully effective because responsible
Measures Not               officials had not developed adequate policies and procedures and annual
Developed                  plans as required by OMB Circular A-131, or established goals and
                           objectives for the program.” The OIG recommended that annual and
                           long-term goals and objectives and performance measures be established
                           for the DOE Value Engineering program.

                           According to management comments in DARTS, annual and long-term
                           goals and objectives and performance measures will be developed by
                           OECM as resources become available. OECM officials acknowledged
                           that Value Engineering has not been a high priority for OECM. These
                           officials attribute this to limited resources in OECM, which assumed
                           responsibility for the 1998 OIG audit recommendations and other project
                           management responsibilities following the dissolution of the Office of
                           Field Integration.




Page 6                                                                  Details of Findings
Value Engineering                  According to the 1998 OIG audit report, some field activities had not
Savings/Cost                       consistently computed or reported Value Engineering savings. The OIG
Avoidance Not                      recommended that Department guidance on Value Engineering
Reported                           application adequately address methodologies for computing and
                                   reporting savings.

                                   From discussions with DOE officials at selected DOE sites, we learned
                                   that some field activities are not consistently computing or reporting
                                   Value Engineering savings. Although some DOE sites are conducting
                                   Value Engineering studies, the results of those studies have not been
                                   uniformly collected by the field offices and reported to Headquarters,
                                   largely, according to officials at some field sites, because Headquarters
                                   officials have not asked for the results. We contacted officials at the
                                   Albuquerque Operations Office (Albuquerque), the Idaho Operations
                                   Office (Idaho), the Oakland Operations Office (Oakland), the Oak Ridge
                                   Operations Office (Oak Ridge), and the Richland Operations Office
                                   (Richland) regarding their Value Engineering activities. Although
                                   officials at each site reported the use of Value Engineering studies, as
                                   illustrated by Table 1 below, we were unable to accurately determine the
                                   savings/cost avoidance resulting from some of these studies.

                                    Table 1: Value Engineering Savings/Cost Avoidance at
                                                       Selected Sites

                                                          FY 98 Savings/       FY 99 Savings/         FY 00 Savings/
                                    Field Site            Avoidance ($M)       Avoidance ($M)         Avoidance ($M)
                                                                                                  1                    1
                                    Albuquerque                        1.5
                                    Idaho                            48.99                    47.3                  2.99
                                    Oakland                           6.11                       0                     0
                                                                                                  1                    1
                                    Oak Ridge                        13.88
                                                                                                                       2
                                    Richland                          9.48                 74.96                23.35
                                    Total                            79.51        Not determined        Not determined



Use of Value                       We determined that the focus of current Department guidance
Engineering Not                    regarding Value Engineering is on the use of Value Engineering
Expanded Beyond                    activities for construction projects, even though Value Engineering
Construction Projects              has much broader application.

                                   A further review of the two DOE orders with references to Value
                                   Engineering indicates that the Department’s policy appears to
                                   emphasize the use of Value Engineering for construction projects,

1
    Site reported that savings/cost avoidance figures were not available for FY 1999 and FY 2000 in a format that
    would allow comparison with FY 1998 figures.
2
    One contractor reported $23.4 million in savings/cost avoidance resulting from Value Engineering studies.
    Another major contractor was not required to report savings/cost avoidance resulting from Value Engineering
    studies. Therefore, a site total was not available.


Page 7                                                                                    Details of Findings
         even though the definition of Value Engineering includes the
         analysis of equipment, systems, services and supplies, as well as
         facilities. Specifically:

         •   DOE O 430.1A, which applies to all physical assets in the
             Department, states that the process for physical asset
             acquisition . . . shall ensure, among other things, the “use of a
             process tool, such as value engineering, to improve efficiency
             and cost-effectiveness . . . .” [Emphasis added.] In addition to
             land, physical assets include structures, utilities, motor
             vehicles, equipment and components.

         •   DOE O 413.3, which provides project management direction
             for the acquisition of capital assets, states that: “Value
             engineering yields the greatest cost savings when applied
             during the planning and design phases of a project. Value
             engineering should also be used during the construction phase
             of a project.” [Emphasis added] In addition to land, capital
             assets include structures, equipment, and information
             technology (e.g., hardware, software and applications).

         We also reviewed the draft “Program and Project Management”
         document and the draft “Project Management Practices” document,
         which were issued for review and use by the Department in
         October 2000. As with the DOE orders, the emphasis of these
         documents also appears to be the use of Value Engineering for
         construction projects. For example, the draft “Program and Project
         Management” document states that “the optimum timing for the
         use of VE [Value Engineering] is between conceptual and
         preliminary design.” Meanwhile, in the discussion of when to
         perform a Value Engineering study, the draft “Project Management
         Practices” document states that “since a value engineering study
         can result in recommending some significant changes in project
         direction . . . the optimum timing for a value engineering study is
         between the completion of the conceptual design and the initiation
         of the detailed design.”

         As previously mentioned, OECM has augmented its staff with
         technical expertise from NETL, which has devised a strategy for
         implementation of a Value Engineering program. However, we
         were told by a NETL official that this strategy will not be
         completely implemented until the end of 2002.




Page 8                                                    Details of Findings
RECOMMENDATIONS   We believe that the Department will not realize the full benefits of
                  the Value Engineering methodology, which include reducing
                  acquisition and program costs, increasing productivity,
                  streamlining operations, and improving quality, unless and until
                  the minimum requirements in OMB Circular A-131 for an
                  effective Value Engineering program are implemented.

                  Therefore, we recommend that the Director, Office of
                  Management, Budget and Evaluation/Chief Financial Officer, take
                  appropriate action to establish an effective Department-wide Value
                  Engineering program by:

                  1. Ensuring that the requirements of OMB Circular A-131 for
                     establishing and maintaining a Value Engineering program, to
                     include the accurate reporting of accomplishments, are fully
                     implemented, and

                  2. Ensuring that the recommendations in the 1998 OIG audit
                     report on the Department’s Value Engineering program are
                     implemented in a timely manner.

                  We also recommend that the Under Secretary for Energy, Science
                  and Environment:

                  3. Designate a senior official with responsibility for executing the
                     Value Engineering program for programs and projects under
                     the Under Secretary’s cognizance. As a minimum, the
                     designated official should:

                     a. Conduct evaluations of Value Engineering practices at
                        Headquarters and field sites and identify appropriate
                        corrective actions,

                     b. Develop and disseminate Value Engineering lessons
                        learned, and

                     c. Establish a cost threshold for capital acquisitions and
                        ensure that Value Engineering studies are conducted, as
                        appropriate, for acquisitions exceeding the established
                        threshold.

                  In addition, we recommend that the Administrator, National
                  Nuclear Security Administration:

                  4. Designate a senior official with responsibility for executing the
                     Value Engineering program for programs and projects under



Page 9                                                         Recommendations
                the Administrator’s cognizance. As a minimum, the designated
                official should:

                a. Conduct evaluations of Value Engineering practices at
                   Headquarters and field sites and identify appropriate
                   corrective actions,

                b. Develop and disseminate Value Engineering lessons
                   learned, and

                c. Establish a cost threshold for capital acquisitions and
                   ensure that Value Engineering studies are conducted, as
                   appropriate, for acquisitions exceeding the established
                   threshold.

MANAGEMENT   Management concurred with our recommendations.
COMMENTS
             In comments dated November 6, 2001, to our draft report the
             NNSA Associate Administrator for Management and
             Administration stated that NNSA will work with the Director,
             Office of Management, Budget and Evaluation/Chief Financial
             Officer, on the development of policies related to the Value
             Engineering program. Further, NNSA will continue taking the
             measurable steps to implementing a Value Engineering program on
             capital projects managed through the Associate Administrator for
             Facilities and Operations. According to the Associate
             Administrator for Management and Administration, it is the intent
             of NNSA to define and implement an effective Value Engineering
             program and to develop the reporting process to ensure it is an
             integral part of NNSA’s program and project management. He
             stated that NNSA would issue a policy letter in FY 2002 that will
             define the process and reporting requirements for Value
             Engineering efforts within NNSA.

             In comments dated December 6, 2001, to our draft report the
             Director, Office of Management, Budget and Evaluation/Chief
             Financial Officer, stated that his Office will continue developing
             policies related to the Value Engineering program, as well as
             taking measurable steps to implement the same program for the
             entire Department in accordance with the requirements contained
             in OMB Circular A-131. Regarding Recommendations 1 and 2, he
             stated that his Office will establish a Departmental Value
             Engineering policy that will meet the requirements of OMB
             Circular A-131 and that is applicable to all the Department’s
             systems, equipment, facilities, services, and supplies for the
             purpose of achieving the essential functions at the lowest life-cycle



Page 10                                             Management Comments
            cost consistent with required performance, reliability, quality and
            safety. Regarding Recommendations 3 and 4, he stated that a
            designated senior official would be responsible for executing the
            Value Engineering program for programs and projects under their
            cognizance. According to the Director, the estimated target for
            completion of corrective actions regarding the recommendations is
            December 2002.

INSPECTOR   We believe that the corrective actions identified by management,
COMMENTS    if fully implemented, will be responsive to our recommendations.




Page 11                                                Inspector Comments
Appendix A
Scope and     Our review was conducted during the period June to October 2001.
Methodology   As part of our review, we interviewed Headquarters officials in the
              Department of Energy’s (DOE) Office of Engineering and
              Construction Management, Office of Environmental Management,
              Office of Science, Office of Defense Programs, and Office of
              Procurement and Assistance Management. We also interviewed
              DOE and DOE contractor officials at the Idaho Operations Office,
              the Oakland Operations Office, the Oak Ridge Operations Office,
              the Richland Operations Office, the Savannah River Operations
              Office, the Ohio Field Office, the Rocky Flats Field Office, and the
              National Energy Technology Laboratory. Furthermore, we
              interviewed Federal officials at the Office of Management and
              Budget, the Department of State, the Department of the Interior,
              and the Army Corps of Engineers.

              We collected, reviewed, and analyzed extensive documentation on
              the Value Engineering Program, including:

              •   Office of Management and Budget Circular A-131, “Value
                  Engineering,”

              •   Public Law 104-106, “The Federal Acquisition Reform Act of
                  1996,”

              •   DOE O 413.3, “Program and Project Management for the
                  Acquisition of Capital Assets,” dated October 13, 2000,

              •   DOE O 430.1, “Life-Cycle Asset Management,” issued in
                  August 1995,

              •   DOE O 430.1A, “Life-Cycle Asset Management,” dated
                  October 14, 1998,

              •   DOE Order 4010.1A, “Value Engineering,” dated May 14,
                  1992,

              •   Office of Inspector General Audit Report No. HQ-B-98-01,
                  “The U.S. Department of Energy’s Value Engineering
                  Program,” dated July 1998,

              •   General Accounting Office Report No. GAO/RCED-00-209R,
                  “Observations on the Department of Energy's Fiscal Year 1999
                  Accountability Report and Fiscal Year 2000/2001 Performance
                  Plans,” dated June 30, 2000,




Page 12                                             Scope and Methodology
          •   National Research Council Report, “Improving Project
              Management in the Department of Energy,” dated July 1, 1999,
              and

          •   Draft DOE “Value Engineering Implementation Strategy,”
              dated June 1, 2001.

          The inspection was conducted in accordance with the “Quality
          Standards for Inspections” issued by the President’s Council on
          Integrity and Efficiency.




Page 13                                        Scope and Methodology
Appendix B
                        OMB CIRCULAR A-131 REQUIREMENTS

The Department of Energy’s (DOE) draft implementation strategy includes actions that would
bring DOE into compliance with OMB A-131 requirements. The table below shows the current
status of DOE with regard to the requirements.

                    Requirement                                        DOE Status
a. Designate a senior management official to           There is no written designation, but the
monitor and coordinate agency Value Engineering        Director, Office of Engineering and
(VE) activities.                                       Construction Management (OECM), is
                                                       the designated official by virtue of
                                                       responsibilities.
b. Develop criteria and guidelines for both in-house   Criteria and guidelines do not exist.
personnel and contractors to identify
programs/projects with the most potential to yield
savings from the application of VE techniques.


c. Assign responsibility to the senior management      No one is designated to grant waivers.
official designated pursuant to [a.] above, to grant
waivers of the requirement to conduct VE studies on
certain programs and projects. This responsibility
may be delegated to other appropriate officials.
d. Provide training in VE techniques to agency staff   No formal VE training is provided.
responsible for coordinating and monitoring VE
efforts and for staff responsible for developing,
reviewing, analyzing, and carrying out VE
proposals, change proposals, and evaluations.
e. Ensure that funds necessary for conducting          Specific funds for VE efforts are not
agency VE efforts are included in annual budget        included in the annual budget to OMB.
requests to the Office of Management and Budget        Efforts are funded from the individual
(OMB).                                                 projects.
f. Maintain files on projects/programs/systems/        OECM does not maintain files on VE,
products that meet agency criteria for requiring the   but various field offices keep files.
use of VE techniques.
g. Adhere to the acquisition requirements of the       DOE officials state that FAR clauses are
FAR, including the use of VE clauses set forth in      used as appropriate.
Parts 48 and 52.
h. Develop annual plans for using VE in the agency.    DOE does not have annual plans for VE.
i. Report annually to OMB on VE activities.            DOE did not report to OMB on VE
                                                       activities for FY 1999 or FY 2000.




Page 14                                                  OMB Circular A-131 Requirements
Appendix C
                      STATUS OF 1998 OIG AUDIT RECOMMENDATIONS

In July 1998, the Office of Inspector General (OIG) issued a report on the results of its audit of
the Department’s Value Engineering program. The report, titled “The U.S. Department of
Energy’s Value Engineering Program,” HQ-B-98-01, contained recommendations for corrective
actions to improve the Department’s Value Engineering program. These actions included,
among other things, clarifying the requirement for use of Value Engineering in DOE orders and
other guidance; establishing annual and long-term goals and objectives and performance
measures; ensuring guidance adequately addresses methodologies for computing and reporting
savings; expanding application of Value Engineering beyond construction projects in order to
realize the full benefit of the Value Engineering methodology; developing training in Value
Engineering; and ensuring adequate guidance to implement a Value Engineering program is
provided to program offices, including guidance on an approach to funding the Value
Engineering program.

As of September 6, 2001, corrective actions on the 1998 OIG audit report recommendations had
not been completed. All the recommendations were open in the Department’s Audit Report
Tracking System (DARTS). The following is the status of actions by the Department to address
the specific OIG audit report recommendations as reported by the Department in its most recent
DARTS status report dated March 31, 2001, and in discussions with program officials:

The 1998 OIG audit report recommended that the then Director, Office of Field Management:3

•    clarify the requirement for Value Engineering application in LCAM 430.1 and other
     Departmental guidance,

•    ensure that recently developed Departmental guidance on Value Engineering application
     adequately address:

     •   procedures on processing proposals
     •   guidance on those cost savings initiatives that will be acceptable as Value Engineering
         efforts;
     •   methodologies for computing and reporting savings; and,
     •   documentation required to support such savings.

In its DARTS status report, the Department reported that DOE Order 413.3, “Program and
Project Management for the Acquisition of Capital Assets” and the draft Project Management
Manual were issued for use on October 13, 2000. Additional guidance related to Value
Engineering is under development and will be included in the final draft of the Manual before it
is put into the directives review process in October 2001.


3
    The Office of Field Management was renamed the Office of Field Integration.




Page 15                                                Status of 1998 OIG Audit Recommendations
The 1998 OIG audit report recommended that the then Director, Office of Field Management:

•   Establish annual and long term goals and objectives and performance measures for the DOE
    Value Engineering program, and

•   Develop, in conjunction with the program offices, a strategy/annual plan that includes those
    programs and projects that may better benefit from the application of Value Engineering
    techniques. Application of Value Engineering should be expanded beyond construction
    projects in order to realize the full benefit of the Value Engineering methodology.

In its DARTS status report, the Department reported that OECM, which assumed the Office of
Field Integration responsibilities for Value Engineering when the Office of Field Integration was
dissolved, would accomplish these recommendations as resources become available. We note,
however, that the draft Value Engineering implementation strategy prepared by OECM addresses
only capital acquisitions, and, therefore, is not consistent with the 1998 OIG audit report
recommendation to expand the application of Value Engineering beyond construction projects.

The 1998 OIG audit report recommended that the then Director, Office of Field Management:

•   Develop Value Engineering competencies and training requirements and ensure that agency
    staff involved with Value Engineering application are adequately trained.

In its DARTS status report, the Department reported that Value Engineering competencies and
training requirements would be integrated into the Project Management Career Development
Program, which will be a two-year effort.

The 1998 OIG audit report recommended that the then Director, Office of Field Management:

•   Work with the Office of the Deputy Secretary to ensure sufficient guidance to implement a
    Value Engineering program is provided to the program offices consistent with OMB Circular
    A-131. The approach for funding the Value Engineering program shall be included in this
    guidance.

In its DARTS status report, the Department reported that, in conjunction with the
recommendations for clarification of Value Engineering requirements and guidance, the revision
to the draft Project Management Manual would further develop procedures for implementing
Value Engineering.

The 1998 OIG audit report also recommended that the then Deputy Assistant Secretary for
Procurement and Assistance Management work with the Office of Field Management to identify
procurement policy changes necessary to implement the Department's Value Engineering
program.

In its DARTS status report, the Department reported that this depends on whether any
recommendations proposed by OECM are approved and whether the approved recommendations
require any procurement policy changes.


Page 16                                        Status of 1998 OIG Audit Recommendations
                                                                    IG Report No. DOE/IG-0536

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we nay
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
